<html>
<title> - THE THREAT OF CHINA'S UNSAFE CONSUMABLES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                THE THREAT OF CHINA'S UNSAFE CONSUMABLES
=======================================================================



                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2013

                               __________

                           Serial No. 113-25

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                ______




                  U.S. GOVERNMENT PRINTING OFFICE
80-800                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Mark Kastel, co-founder, The Cornucopia Institute............     8
Mr. William Triplett II, author and consultant (former chief 
  Republican counsel, Senate Committee on Foreign Relations).....    14
Ms. Patty Lovera, assistant director, Food & Water Watch.........    26
Ms. Sophie Richardson, China director, Human Rights Watch........    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Prepared statement..............     4
Mr. Mark Kastel: Prepared statement..............................    10
Mr. William Triplett II: Prepared statement......................    16
Ms. Patty Lovera: Prepared statement.............................    28

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Ms. Sophie Richardson: Material submitted for the record.........    56


                THE THREAT OF CHINA'S UNSAFE CONSUMABLES

                              ----------                              


                         WEDNESDAY, MAY 8, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order this hearing of the 
Foreign Affairs Subcommittee on Europe, Eurasia, and Emerging 
Threats. Today's topic is ``The Threat of China's Unsafe 
Consummables,'' an emerging threat.
    After the ranking members and I each take our 5 minutes to 
make opening remarks, each member present will have 1 minute to 
make some opening remarks as well, alternating between majority 
and minority members and without objection all members will 
have 5 days to submit statements, questions, extraneous 
material for the record. Hearing no objections, so ordered.
    Who could forget that agricultural interests were the 
driving force behind various trading and trade-expanding 
understandings that our country has had with the communist 
Chinese regime in Beijing. Who would have thought that the 
People's Republic of China would become a significant food 
exporter, especially of fruits, vegetables, seafood, and dairy 
products? The farming community, the agricultural industry puts 
so much effort because they just saw this as a market for their 
goods, never did they consider that these would be competitors 
and competitors that did not have to meet the same standards 
that they have.
    Chinese industry has also become a major producer of drugs 
and chemicals used in both medicine and food processing and 
yes, and in manufacturing as well. Thus, the health and safety 
not only of the United States and Europe, but that of people 
around the world has become dependent on the quality of goods 
imported from China. Yet, the task of inspecting and testing 
Chinese goods is beyond the ability of governments. Considering 
the magnitude of that challenge, it is beyond their ability to 
do a good job or at least that is what I am suggesting. We will 
hear from our witnesses what they think about that.
    Astonishingly, the U.S. Food and Drug Administration 
inspects less than 2 percent of the food imports from China. 
This is a major security concern. Why? Because the record of 
Chinese quality in their food production is extremely poor. 
Indeed, CNN reported Monday that poultry workers moving to and 
from wet markets and farms may be responsible for the spread of 
the deadly H7N9 virus in China, read that, the bird flu virus. 
We import poultry now to feed animals, but the FDA may soon 
approve the importation of China poultry for human consumption. 
Now does this move make sense at all?
    Ronald Reagan once said of the Soviet Union, ``trust, but 
verify.'' In regards to Communist China, however, we cannot 
trust, nor can we verify. China producers are motivated to cut 
corners, dilute content, counterfeit products to maximize 
profits, and keep prices so low as to dominate export markets. 
Chinese supervision and regulation is weak and corrupt. We have 
the irony of a communist system that has spawned the most 
predatory capitalism of all. The result is food that makes you 
sick and drugs that will not make you well and could well kill 
you.
    Even the state-owned media knows the problem. Last October, 
China Daily cited a marketing survey which found and I quote, 
``Food safety is a top concern for Chinese shoppers, especially 
regarding such produce as vegetables, meat, seafood, grain, 
cooking oils, and dairy foods.'' If this is true within China, 
then it should also be true for foreign markets. And a series 
of scandals involving toxic chemicals and other fillers in food 
products around the world confirm this. Yet, Chinese 
agricultural exports continue to increase, driven by their low 
prices.
    The same is true in the pharmaceutical industry. There has 
been movement, again unexpected, of much of that industry from 
the United States to China. Just like in the agricultural area 
we saw a whole industry shift over to China that was never 
predicted by agriculture, while it also hasn't been predicted 
by the pharmaceutical industry. Beijing has been allowed, for 
example, to join the World Trade Organization which helped this 
shift. This shift was motivated by a desire to cut costs by 
using cheap Chinese labor and by avoiding expensive regulation. 
This opened the door not only to lower quality output, but made 
it easier for counterfeiters to infiltrate the supply side and 
supply chains of our pharmaceutical products. Drugs with weak 
dosages or no active ingredients at all endanger public health 
and discredit treatment programs. Fake drugs undermine U.S. 
efforts to treat illnesses in developing countries. For 
example, the State Department has requested $650 million in 
2014 to fight malaria in developing countries. Yet, half that 
anti-malarial drugs that are on the market in South Asia and 
Africa have been found to be counterfeit. And most of these 
fake drugs come from where? China.
    Fakes also threatened the campaign against diabetes and 
other significant and debilitating diseases.
    Besides the global health, safety, and security threats 
created by unscrupulous Chinese business practices and the 
corrupt lack of supervision by Chinese authorities, there is a 
competitive issue as well. American farmers are the most 
productive in the world and are held to rigorous standards. The 
same is true of the American pharmaceutical industry which 
creates the world's most advanced medicines. Yet, if U.S. 
exports are defeated in the market place on the basis of lower 
prices stemming from illicit cost cutting, then the American 
producer as well as our entire economy will suffer.
    Counterfeit products are often sold under the brand new of 
the legitimate product such as Pfizer or Lipitor, or several 
others. Indeed, there has been and there is hardly an American 
company that has not been victimized by this Chinese larceny. 
And when the product does not work, the brand is held 
responsible. But yet it is not the people of that company that 
has been making the product. It is a knockoff by some Chinese 
company that has been permitted to do so by the Chinese 
authorities that should be enforcing the rule of law.
    Now if you end up having a Chinese company under the name 
of another company, an American company or whatever, what we 
have done is we have slandered the name of an American company 
and we have slandered the ability of the people of the United 
States and our system as well because we have basically been at 
that point saying to the world this is what our products are 
like, but it is not our product. This is something we have got 
to stop if we are going to maintain the integrity and the trust 
that the people around the world have in American products. Not 
to mention we have got to stop it because there are people who 
are being injured and killed because they are using these phony 
products that are being manufactured by someone else other than 
who is on the label.
    Are there measures we can take to persuade China not to do 
certain things or things that China can be persuaded to do to 
safeguard consumers from dangerous exports? Or what steps can 
we take or should we just ban all such goods from China from 
the marketplace because they are inherently unsafe. Well, that 
is a question we will have to talk about today. The production 
and distribution of such critical goods as food and medicine 
upon which life itself depends cannot be trusted unless there 
is integrity throughout the manufacturing and supply chains. We 
have gathered this panel of experts to help us decide what the 
policy options are.

    [The prepared statement of Mr. Rohrabacher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. With that, Mr. Keating, would you have an 
opening statement?
    Mr. Keating. Thank you, Mr. Chairman, and thank you for 
holding today's hearing. From tires to toothpaste to toys, 
Chinese imports account for more than 50 percent of the recalls 
announced by the Consumer Product Safety Commission. And 
China's monetary policies do not make it any easier for safer, 
American-made products to compete with their cheaper Chinese 
counterparts. Ultimately China's policies affect the safety of 
our children, our parents, grandparents, and pets here at home.
    Increasingly, the conversation in Congress has turned to 
China as a rising super power that is increasingly investing in 
emerging markets worldwide, but the fact of the matter is that 
China still lacks the necessary governmental institutions based 
in rule of law, transparency, and accountability to be able to 
regulate its own products. Further, these institutional 
weaknesses extend to the realm of human rights abuses and media 
repression within China.
    During the 2008 Olympic games in China, an official ban on 
reporting ``all food safety issues'' banned media from 
reporting on at least 20 dairy firms that were selling milk 
products that contained the chemical melamine. That coverup 
contributed to the deaths of six children and the illnesses 
among 300,000 others. And when Chinese officials attempted to 
enforce regulations which they have been doing as of late, 
their institutional weaknesses come back to haunt them. Just 
this year, in response to a campaign to crack down on marketing 
sick pigs in China, the Ministry of Public Security has been 
raiding farms, arresting violators, and then confiscating 
unsafe pork meat.
    According to the Council on Foreign Relations during the 
celebration of the Lunar Chinese New York this year, the police 
stepped up efforts to rid the market of tainted pork meat. 
However, in absence of collaboration from other departments, 
these well-intended efforts led to over 6,000 unmarketable dead 
pigs being dumped into a local river. Thousands of carcasses 
were discovered floating in the Huangpu River which supplies 
drinking water to Shanghai's 23 million residents. The domestic 
implications for this huge and incredibly concerning practice 
are yet to be fully understood.
    There are international implications as well. According to 
the same Council on Foreign Relations report, in 2011 alone 
China produced more than 50 million metric tons of pork 
accounting for nearly half the world-wide pork production. And 
unfortunately, we can easily list other instances like this 
throughout China as well as one recall after another for 
Chinese products in our own country here at home. For this 
reason, and the fact that China has been extending operations 
into developing regions of the world with even weaker 
standards, I do agree with you that China's unsafe products 
have the potential to become an even more widespread threat to 
global health and global safety.
    I hope that today's hearing will shed some light as to why 
and which way we can proceed as a country to really protect our 
consumers at home and protect consumers throughout the world. I 
welcome our witnesses and look forward to their testimonies. 
And with that, thank you, Mr. Chairman, I yield back.
    Mr. Rohrabacher. Thank you for that very provocative 
opening statement. It gives new meaning to sweet and sour pork 
you might say. I now recognize Steve Stockman, the outspoken 
member of our committee from Texas.
    Mr. Stockman. Thank you, Mr. Chairman. I am glad you put 
this hearing together. We have in our district, rice, catfish, 
and pharmaceuticals. You can trust ours, and our labeling. And 
someone who buys organic food and purchases organic food, and 
now finds that the society which professes to be socialist and 
caring, and not driven by greed, is actually driven by greed 
and mislabels organic food and other products is very 
Orwellian, I guess, to say the least. I thank you for holding 
these hearings. I am looking forward to the testimonies of our 
guests today. Thank you.
    Mr. Rohrabacher. Thank you very much. It is ironic that for 
all of these years, the communists were talking about how 
horrible free enterprise and capitalism is and here they have 
turned their back on their own country while they still have a 
government that claims allegiance to Marx and Lenin and they 
just turned their back on this most predatory and awful example 
of irresponsibility in the name of making a profit.
    Now today we have four witnesses and what I am going to do 
is introduce all four now and then we will each have about 5 
minutes to give your presentation. Anything more than that we 
will be happy to put in the record and then we will have some 
questions and answers. First, we have William Triplett. He is 
an author and consultant with great experience with China. You 
have been a consultant for four decades now. Mr. Triplett began 
his professional career with the American intelligence 
community working China issues overseas. Later, he was the 
Deputy Assistant U.S. Trade Representative for the East-West 
meaning China during the first Reagan administration. He served 
for 9 years on the staff of the Senate Foreign Relations 
Committee reaching the post of chief Republican counsel to the 
committee. His most recent--he has several books--is Bowing To 
Beijing, published last year and he is a frequent contributor 
to newspapers and professional journals.
    We also have with us Patty Lovera and she is assistant 
director of the nonprofit Food & Water Watch where she 
coordinates the organization's food policy program. She has a 
bachelor's degree in environmental science and a master's 
degree in environmental policy from the University of Michigan. 
Before joining the Food & Water Watch, she was a deputy 
director of the Energy and Environment Program at Public 
Citizen and a researcher at the Center for Health, Environment, 
and Justice.
    We have with us also Mark Kastel and is co-founder of The 
Cornucopia Institute, a foreign policy research group based in 
Wisconsin and director of its Organic Integrity Project. For 
almost 20 years prior to the launch of this institute, he was 
president of M.A. Kastel and Associates, a professional 
practice that include political consulting, lobbying, business 
development, and benefitting family scale farmers.
    Finally, Sophie Richardson is the China director at the 
Human Rights Watch, a graduate of the University of Virginia, 
the Hopkins-Nanjing Program and Oberlin College. Dr. Richardson 
is the author of numerous articles on domestic Chinese 
political reform, democratization and human rights in Cambodia, 
China, Indonesia, Hong Kong and the Philippines and Vietnam. 
Her book, ``China, Cambodia, and the Five Principles of 
Peaceful Coexistence'' was published by Columbia University 
Press and is an in-depth examination of China's foreign policy 
since the 1954 Geneva Conference. With that said, we have our 
witnesses with us today and we will start with Mr. Kastel.

   STATEMENT OF MR. MARK KASTEL, CO-FOUNDER, THE CORNUCOPIA 
                           INSTITUTE

    Mr. Kastel. Thank you, Mr. Chairman. My name is Mark Alan 
Kastel. I am the co-director and act as senior farm policy 
analyst at The Cornucopia Institute. We are based in 
Cornucopia, Wisconsin.
    Cornucopia is a tax-exempt farm policy research group. We 
act as an organic industry watchdog.
    We have long been concerned about the propriety of organic 
commodities and finished products being imported into the 
United States from China.
    Mr. Chairman, many in this country, for good reason, based 
on history, do not trust the Chinese to supply ingredients for 
our dog and our cat food. Why should we trust these Chinese 
exporters with food that we are feeding our children and our 
families?
    Besides any specific concerns and evidence regarding 
organics, this is a country with endemic levels of commercial 
fraud whether in intellectual property, the counterfeiting of 
name-brand consumer products, or being engaged in industrial 
espionage.
    The organic marketplace was founded as an ethical 
alternative for consumers seeking safer and more nutritious 
food to serve their families. We looked at Chinese organics as 
part of our research and investigation in preparing our report, 
``Behind the Bean.'' We found that although there were many 
exemplary U.S. manufacturers, the majority of the participants 
in the organic soy industry were shifting to Chinese organic 
imports. And in particular, we highlighted Dean Foods' 
WhiteWave Division which manufactures the market-leader, Silk 
soy milk. They threw U.S. organic producers under the bus by 
asking them to match cheaper Chinese prices which they were 
unable to do.
    In Cornucopia's 2009 Soy Food Report, we estimated that as 
much as half of all organic soybeans being sold in the United 
States came from overseas, primarily China. It is probably 
higher now.
    We were told by domestic soybean buyers and processors of 
food-grade soybeans that brokers came to them with a choice. 
They had A beans and B beans. What is the difference? The 
brokers told us that the A beans were from farms and suppliers 
they had personally visited in China and they could vouch for 
the authenticity of the product. And the B beans? Well, the 
brokers had a piece of paper, a certification document that 
says they are organic. And they are cheaper.
    Most commonly we found that the ones that got purchased 
were the B beans.
    In February 2011, the USDA's National Organic Program 
started informing the public of fraudulent organic 
certificates, these pieces of paper that I referenced. They 
found that of 22 fraudulent organic certificates since that 
point in time, 9 were from China. The next highest country had 
only three from India where we are also seeing an exponential 
increase in organic imports.
    And whether it is melamine contaminating processed food, 
rat meat masquerading as lamb, or dead hogs floating down that 
river you referenced, we don't trust--the Chinese don't trust 
the food they are producing. Why should we?
    The USDA and FDA inspectors are only examining as 
referenced 1-2 percent of all food that reaches U.S. ports. And 
what are they finding? A disproportionate number of serious 
problems from China: Adulteration, unapproved chemicals, dyes, 
pesticides, and outright fraud, fake food.
    The remaining 98 percent that is not inspected, well, that 
might be on your table tonight for dinner or at the restaurant 
you might be enjoying.
    The largest organic farmer cooperative in this country, 
Organic Valley, is now exporting packaged milk to China. You 
can understand why a growing, affluent cross section of the 
Chinese populace is buying imported U.S. commodities. What do 
they know that many in the United States don't know about the 
safety of Chinese food?
    The farmers I work for have names and they have a story and 
they have a background and they are competing with these pieces 
of paper. Organics continue to grow even in this tight economy, 
but for the first time we are seeing a net loss in the number 
of organic farmers in the Midwest and Rocky Mountain States and 
we are losing thousands of acres of farmland. We can't compete 
with the Chinese without a level playing field in terms of 
aggressive certification and enforcement of organic law.
    In conclusion, the Cornucopia Institute welcomes 
congressional pressure on the FDA and USDA to fulfill their 
mandates, to protect domestic farmers, organic consumers and 
all consumers from the dangerous fraud in the importation of 
food from China, India, former Soviet bloc states, or any other 
country exporting poison to our shores and we hope that you 
folks will adequately augment their budget and watchdog them to 
make sure they are carrying out their missions. Thank you very 
much, Mr. Chairman.
    [The prepared statement of Mr. Kastel follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much. That was very 
thoughtful. We will have some questions.
    Mr. Triplett.

  STATEMENT OF MR. WILLIAM TRIPLETT II, AUTHOR AND CONSULTANT 
 (FORMER CHIEF REPUBLICAN COUNSEL, SENATE COMMITTEE ON FOREIGN 
                           RELATIONS)

    Mr. Triplett. Good afternoon, Mr. Chairman, and 
Distinguished Ranking Member. I am William C. Triplett II, and 
with the committee's permission I would like my prepared 
statement put in the record and I will speak just briefly off 
the cuff.
    Mr. Rohrabacher. Certainly with no objection. Thank you.
    Mr. Triplett. Last week, they had a lot of fun with the rat 
meat story that was in the newspaper and on headlines and so 
forth. Chinese Supreme Court Judge was quoted, ``The situation 
is really gray and has indeed caused great harm to the 
people.'' Certainly, he is right. And he is talking about the 
Chinese people, but the obvious problem is that that stuff 
comes to us, too.
    There is three ways we can look at it. One is the 
adulterated food issue. The second one is their deficient 
health system. And the third one which I would like to talk 
about a little bit is pollution for thee, but not for me. One 
of the things we have known for a long time is that the Chinese 
cadres had their own farms. They don't trust the food and so 
forth and so on. That is number one. The farmers themselves 
don't trust their own food. They won't eat what they produce, 
so they ship it to another province. Rich people are leaving 
the country and in the exit interviews they are being asked why 
are you leaving and the answer is because of food safety and so 
forth and so on. One of the other things is Chinese communist 
officials even have special filters on the buildings that they 
work in so that they don't have to breathe the foul air.
    Now the issue of is this becoming our problem, I have a 
graph in the prepared statement that shows that in the last 3 
years, Chinese agricultural imports are going up by about $\1/
2\ billion a year. That is the first graph. And of course, 
imports of poultry are going up at an even higher rate.
    The question is can the Chinese solve the problem on their 
own? I don't think that I know anybody who studies this closely 
who really thinks the Chinese can handle it themselves. I think 
the system is simply too corrupt and I think we are going to 
hear that from several of the witnesses today and so forth and 
so on.
    I would like to turn to what the Congress and the committee 
can do about it. First and foremost, I want to commend the 
committee for holding this hearing. That is the alpha, if you 
will, of the alpha and omega of solutions because without this 
kind of a hearing, then this issue will get lost with the other 
issues.
    The second end of the issue is this is the omega. And that 
is when China becomes a democratic country, then the people 
will demand safe food and safe food for them will then 
ultimately mean safe food for us. So we are between these two 
ends. The question is what to do in the middle?
    I have a lot of experience, as the chairman well knows, in 
arms smuggling of Chinese to terrorist countries and groups and 
so forth and so on. Smuggling is a real big deal. I would hope 
the committee would encourage the usual suspects to find out 
basically who is involved, who are the names, who are the 
corrupt officials and so forth and so on who are engaged in 
this food safety business. That is the first thing. Let us take 
names.
    The second thing is I think we need to change the terms of 
reference. New York Times today had a big story about how we 
need $3 billion more for food inspection. I am generally 
sympathetic with that, but on the other hand if you look at the 
honey case, I am not sure how much money would be sufficient 
and I think the onus should go the other direction and that is 
the Chinese would basically guarantee that their food is safe.
    The other thing is a question of draconian punishments. 
Congress has a history of imposing draconian punishments, the 
Toshiba case being the most famous example. And also this 
committee has jurisdiction over the International Emergency 
Economic Powers Act.
    Third, I have included something called the strategic 
policy framework which was circulated in the last Congress and 
is essentially a way to organized looking at Chinese issues 
from a comprehensive standpoint. So if you put the three 
together, take names, that is number one. Number two is change 
the terms of reference. Number three, begin to talk about 
really draconian measures against some of the people who are 
engaged in this and then do this all in a comprehensive way. I 
think that would be the best of my suggestions. Thank you very 
much for the opportunity to speak.
    [The prepared statement of Mr. Triplett follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. And Ms. Lovera

STATEMENT OF MS. PATTY LOVERA, ASSISTANT DIRECTOR, FOOD & WATER 
                             WATCH

    Ms. Lovera. Good afternoon. My name is Patty Lovera and I 
am the assistant director of Food & Water Watch. We are a 
nonprofit consumer advocacy organization and we appreciate the 
opportunity to present testimony on this important topic.
    As we have discussed, the United States is increasingly 
reliant on imported food and China is in the position as the 
world's largest agricultural economy to send us a lot of the 
food that we are importing. We import over 1 billion pounds of 
fruits and vegetables from China every year and over 1 billion 
pounds of fish and seafood. For some products, like apple juice 
and garlic, China has already started to replace domestic 
production of crops that we have traditionally grown here. And 
it is not just fresh produce or even fruits and vegetables and 
seafood. We are increasingly bringing in processed foods and 
the ingredients that we use in processed foods.
    In 2010, we imported 81 million pounds of spices and 41 
million pounds of pasta and baked goods from China.
    I have included some charts with a lot more data on these 
trends in the written testimony that I have submitted.
    Food safety problems in China have obviously been making 
headlines for a while. We spoke already about contamination of 
foods with melamine. The one point I will add to the melamine 
story is why melamine was in the food. So melamine is an 
ingredient in plastics and it has been intentionally added to 
these food products to try to artificially increase the 
nitrogen contents in those foods, to attempt to beat laboratory 
tests for protein levels. So this was not an accidental 
contamination. This was intentional adulterated with an 
economic motive, to try to beat laboratory tests.
    So despite very public efforts in recent years by the 
Chinese Government to crack down on food safety problems, it is 
kind of a continual feed of bad news from the food safety front 
from China. We have heard a lot of these examples already.
    I do want to spend a minute talking about what our 
Government is doing in terms of protecting U.S. consumers with 
our oversight of these imports. We have already heard that the 
FDA can inspect less than 2 percent of imported produce, 
processed food, and seafood which we think almost guarantees 
that some unsafe Chinese products are going to make their way 
on to our store shelves.
    The FDA opened its first office in China in 2008. However, 
the few FDA inspectors in China are overwhelmed by the sheer 
size of the nation's food production including an estimated 1 
million food processing companies. In Fiscal Year 2012, FDA 
conducted ten inspections of food facilities in China.
    When it comes to meat and poultry imports, that is the 
responsibility of the Department of Agriculture. And we are not 
yet importing meat and poultry for human consumption from 
China, but that process is underway and we are concerned about 
the way that USDA is regulating imports of these products from 
other countries and what that will mean if China does get 
approved. The USDA recently announced in 2009 that it made a 
major change to its oversight of imports by ending annual in-
depth audit visits it would make to exporting countries. Now 
they are relying on a self-reporting tool for countries as a 
substitute. And that means they are going to do those audit 
visits every 3 years instead of annually. So if we reach a 
point and the process is ongoing now where China gets approved 
as equivalent to send processed chicken products here, we worry 
that that is the process the USDA will use and it is clearly 
not sufficient.
    Just a few recommendations that we would have about what we 
can be doing on the U.S. front to protect consumers from this 
situation? We think in the big picture it is really important 
to think about that this is not an unforeseeable outcome. This 
is not an accident. We are combining trade policy that makes 
the U.S. more and more reliant on importing food with a food 
safety regulatory system that is not up to the job of dealing 
with that rising tide of imports. So in addition to examining 
our trade policy, we think we also need to really take a hard 
look at the changes we need to make to our food safety 
programs.
    So specifically, we think the USDA should conduct an 
entirely new investigation before allowing Chinese poultry 
products to be exported to the United States. If these imports 
are approved, USDA should permanently assign inspection 
personnel to China so that the exporting plants receive regular 
visits by USDA inspectors.
    When it comes to the FDA, they need the resources to 
conduct more inspections in food facilities in China rather 
than relying on third party certifications of the safety 
practices used by exporting firms. So this is a model that is 
being proposed under new food safety legislation that would 
make the FDA very reliant on using third parties to verify that 
food from other countries is safe. We don't think that is 
adequate for U.S. consumers. It is the government's job to do 
these safety inspections. So we are quite concerned about that.
    And then finally, consumers do have one tool right now to 
protect themselves which is country of origin labeling which is 
mandatory, thanks to Federal law. It covers meat, seafood, 
fruits and vegetables and some nuts, but there are problems in 
the coverage of that labeling program because of the way that 
USDA has defined the word processed. The law says processed 
foods don't get a label. USDA wrote an incredibly broad 
definition of processed, so a lot of forms of these foods that 
should be covered are not required to have a label. So we think 
that USDA should change that definition so consumers get more 
coverage of the country of origin label. Thank you.
    [The prepared statement of Ms. Lovera follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much. Ms. Richardson.

   STATEMENT OF MS. SOPHIE RICHARDSON, CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thank you, Mr. Chairman. And thanks to the 
members of the subcommittee for holding this timely----
    Mr. Rohrabacher. We are going to need you a little closer 
to the mic or whatever we can do there.
    Ms. Richardson. How is that?
    Mr. Rohrabacher. That is great.
    Ms. Richardson. In Human Rights Watch's view, the integrity 
of products made in China, whether they are for domestic 
consumption or for export is directly related to the 
government's respect for the freedom of expression, access to 
information, and the independence of the legal system. In other 
words, the lack of protections, the lack of upholding these 
particular rights make it extremely difficult to ensure whether 
products are safe, whether products are what they say they are, 
or whether consumers here or there have any means of real 
effective redress.
    In one particularly telling example of the Chinese 
Government's choice to suppress information as Mr. Keating 
referred to in his opening remarks, Chinese journalists were 
ready in the early summer of 2008 to report the melamine 
scandal but because of the ban on bad news in the run up to the 
2008 Olympics, those journalists were not allowed to report 
that story until much later in the year by which point 300,000 
kids had gotten sick and at least 6 had died. So the government 
was perfectly willing to suppress news even that which posed a 
clear public safety threat.
    It is also worth noting that in November 2010 a Beijing 
court sentenced a man named Zhao Lianhai to 2\1/2\ years in 
prison on charges of causing a public disturbance which we 
found particularly ironic description of the actions of man who 
in the face of his own child's melamine-induced illness had 
sought to organize other parents to file a class action 
lawsuit. Even now 5 years later, it is not hard to find 
newspaper articles about Chinese consumers either going abroad 
specifically for the purpose of or incidental to outside travel 
purchasing baby milk formula because concerns about those 
products still run so deep.
    To us, it is of equal concern the range of issues on which 
the Chinese domestic press and the international press continue 
to be prevented from reporting in a timely manner, whether it 
is about chemical spills, infectious disease outbreaks or 
public unrest in response to environmental problems. This puts 
all of us at risk.
    I think the problems aren't just a question of what does or 
doesn't make it into a newspaper or what products make it into 
an export stream, but also about what kinds of information 
ordinary people inside China can have access to. I have also 
submitted into the record a report we wrote in 2011 about the 
lead poisoning of children in four provinces in China. These 
were children of people who either worked in battery factories 
or lived near facilities that processed products made with 
lead. None of those facilities operated in compliance with 
domestic laws on health and safety obligations. Many of them 
were operating in violation of close-down orders. Several of 
them had been fined, but paid the fines and continued to 
operate. And we think this was largely a result of commingling 
of economic and political interests in those areas. It is a 
common dynamic across the country.
    Parents of sick children were repeatedly thwarted, not only 
in their efforts to get accurate tests. Parents told us 
repeatedly about being given falsified test results. Parents 
who went to the provincial capital to file complaints or try to 
file lawsuits were turned back. Some of them, in fact, were 
arrested, essentially in pursuit of simply trying to get 
accurate diagnoses and some sort of compensation or assistance 
for their gravely-ill children.
    I think it is the case that while there are more 
regulations than rhetoric now particularly coming out of the 
new leadership about pollution and about public health, it is 
very hard to see how those have become actionable tools for 
people to get educated, get help, or hold officials or 
companies to account.
    On the question of what remains to be done, clearly, and 
many people at this table are much better equipped to talk 
about the regulatory regimes and what fixes there need to be 
taken than I am, but this is obviously I think consistent with, 
for example, ICE's problems and even accessing the facilities 
to check for prison-made goods. There is a long history of the 
challenges of inspections inside the country.
    But I think it is also not just a question of regulation of 
inspection regimes. There are issues about information, freedom 
of express, at stake. And I think it is not just up to the 
State Department or specific cabinet members to raise those 
issues. I think it is very clear that for the FDA, for their 
agencies to talk about access to information and freedom of 
expression in China is more meaningful than it ever has been in 
the past.
    I also think there is a lot of room for U.S. officials from 
a variety of agencies to take these issues up with counterparts 
other than the Foreign Ministry or the Ministry of Health, such 
as the Supreme Court or the Public Security Bureau. Thank you 
very much.
    [Ms. Richardson did not submit a prepared statement.]
    Mr. Rohrabacher. Thank you very much. Thank all of you for 
beginning this discussion. It is the chair's intention to let 
Mr. Keating, the ranking member, go first in the questions and 
then Mr. Stockman from Texas, and then I will--I think they 
call it in baseball, I will clean up.
    Mr. Keating. Thank you, Mr. Chairman. I just had a thought 
listening to you, Ms. Richardson, that in the absence of the 
media being able to disclose things, what effect, if any, has 
the social media been able to do to get the word out to Chinese 
people that there are dangers in their food and specifically 
when these instances occur, and there is illness attached, to 
alert people in that respect? Has it been helpful in that way?
    Ms. Richardson. Certainly it is an incredibly powerful tool 
for alerting people to specifically which kinds of products or 
which companies' products are problematic. At the same time, 
first of all, social media is subject to the same kinds of 
censorship the official print media is or electronic media. And 
so sometimes that information is quashed fairly quickly.
    I don't have a lot of specific research to point to this, 
but it is also become more common in the last 4 or 5 years for 
journalists and even sort of citizen journalists to be charged 
with spreading rumors. There is actually a specified--it is 
considered an administrative violation rather than a criminal 
one, but I think it makes some people nervous about sharing 
information that could be construed as reporting a rumor rather 
than a fact.
    Mr. Keating. Mr. Triplett, you mentioned the effects of 
this on America's business community here at home. Could you 
comment, and any of our panelists, on how it affects America's 
interests from a business perspective abroad with us trying to 
do business abroad?
    Mr. Triplett. Yes, sir. Of course, we know that the Chinese 
are the biggest counterfeiters in the world. And so it is one 
thing to counterfeit something and make it work right and so 
forth and so on, but if you make something that is, in fact, 
poisonous, then obviously you damage the brand of the American 
firm as well. I think that is a whole wider issue that you can 
get into. That gets into things besides consumables as well. 
There have been rumors for years about the Chinese having UL 
labels that were faked. And so somebody thinks abroad, let us 
say you see something that is made in the United States, has a 
UL label on it and if it is possibly faked by the Chinese, then 
obviously you lose business all the way around.
    It is part of the whole larger thing which is one of the 
reasons why I am suggesting that the committee return to the 
idea of a comprehensive approach to the various kinds of 
Chinese problems. You all had hearings on Chinese cyber 
terrorism, correct? So that is an issue. Food safety is an 
issue. Arms smuggling, I would argue, is an issue, and so forth 
and so on. And to the extent that the Congress can look at this 
comprehensively, I think that is probably a good idea. Thank 
you.
    Mr. Keating. To any of our panelists, Chinese officials 
have been making some attempts to increase regulation and 
enforcement targeting polluting factories. Have these attempts 
been making a difference at all in addressing the urgent and 
long-term health consequences associated with the levels of 
lead seen in villages like Henan, and Hunan, Shaanxi, and 
Yunnan. Those kind of villages, there are reports that there is 
lead polluting those villages. Are any of you aware of the 
efforts they are making on trying to regulate this kind of 
pollution, if they are effective at all?
    Ms. Lovera. I am not familiar specifically with lead 
programs, but I mean when we look at food safety stories and we 
are trying to track what is coming out of China, it does appear 
that there is kind of a broad attempt to really put on a very 
public effort to crack down on problems. There is something 
often in the news about the crackdown. Last week it was fake 
meat. It is pretty constant. I mean one of the issues when you 
are talking about something that is as pervasive as entire 
villages being contaminated, the question is then where are you 
going to grow the food? The lead is not just going to go away 
because they deal with the polluting factor. It is in the soil.
    Why I can speak to the best is that we don't have a 
regulatory system here to know what province or let alone 
village a product would come from if it was shipped here and we 
don't really have a system that is going to very often do a lab 
test to look for lead levels. We tend to find that kind of 
thing when there is a problem and work backwards and then find 
a source. We are not intercepting things when they are coming 
into the U.S.
    Mr. Keating. I have a question. Go ahead.
    Ms. Richardson. I would just add to that a couple of 
points. Shortly after we released this report about lead 
poisoning, there was an announcement by the Ministry of 
Environment that about 500 battery-producing factories were 
going to be shut down. We have tried to track that over the 
years to see if they actually were shut down, if they stayed 
shut down, if, in fact, they reopened, whether the necessary 
protective practices had been put in place and it is extremely 
difficult to discern whether that has actually happened.
    Look, we see this on lots of different issues of a problem 
reaches a certain level of publicity inside China. The 
government says we are going to crack down on it. And a year 
later we are having the same conversation. I did also want to 
pick up on the point that Ms. Lovera just made because when we 
were doing this research, we were also trying to figure out if 
any of the batteries that were being produced in these 
factories actually were turning up in the U.S. or were being on 
sold into an export chain. It was either going from the China 
end to here or going from here backwards. It was almost 
impossible to figure out. We didn't have the resources to try 
to track the products along the way. So for all I know, 
products that got made in these very factories wound up here. 
But we should be able to know that. We should be able to figure 
that out more easily I think.
    Mr. Keating. Thank you. And I yield back, Mr. Chairman.
    Mr. Rohrabacher. Thank you and now Mr. Stockman.
    Mr. Stockman. I have a question. If we--first of all, I 
would have expected Diane Sawyer or someone from ABC, NBC, CBS, 
anybody to cover this. This is a national problem. My question 
for you is, if we publicize your names and make some 
statements, some of the frustrations I get when I am on a 
committee I will reiterate some of the things and I am not 
saying you have done this, then the press calls up and they say 
well, that is not exactly what we said.
    I think this is very alarming what we are hearing today and 
had another nation or other nations done this, I think many 
people would view it almost as an act of war. And that is 
alarming. Ms. Richardson, your statement that they allowed 
their own citizens to die just so they could have a good face 
on the Olympics and that they are willing to sacrifice their 
own children, their own children for the purpose of national 
pride. I don't think then that we fall anywhere near their own 
children. So I don't see how their concerns, what I am saying 
is if they don't seem to care about their own kids, why would 
they care about us? They can't run their own food program, but 
they are somehow going to have compassion for us? That is 
simply not true.
    I was wondering, which company, is Walmart one of the ones 
that imports the most Chinese food for their groceries, do you 
know?
    Mr. Kastel. It is really across the board. The organic 
industry has been the subject of corporate takeover so to speak 
through mergers and acquisitions, so most of the major name 
brands are controlled by familiar agribusinesses like Dean 
Foods and General Mills and Kraft and Smuckers.
    Mr. Stockman. Have you gone to those farms that claim to be 
organic in China?
    Mr. Kastel. No.
    Mr. Stockman. Would they let you come there?
    Mr. Kastel. No. This is a really good question. I mean they 
will limit our access. As an industry watchdog, we actually had 
some inspectors on the ground before the melamine problem 
reared its ugly head. These people withdrew. In fact, we had 
two sets of independent, nonprofit inspectors. They weren't 
necessarily experts in terms of agriculture. They were normally 
inspecting workplace environments, but both groups of 
inspectors withdrew because they were afraid for their own 
personal safety. They couldn't get near these facilities.
    It is even worse. Now you are a consumer of organic food?
    Mr. Stockman. Yes.
    Mr. Kastel. We appreciate that. The farmers that are 
members of the Cornucopia Institute and the farmers that are 
certified under the USDA accreditation program are visited 
every year by a USDA accredited certifier. The USDA directly 
supervises these certifiers, so there is this third party 
oversight and then you have got nonprofit, public interest 
groups watching the corporations and watching the government 
officials. That doesn't happen in China. There are no U.S. 
certification agencies. All the USDA certification happens by 
foreign certifiers mostly from Europe. They can't even go 
unencumbered and inspect these farms. They have to be 
accompanied by a Chinese certification entity. The farmland is 
actually owned by the state, not by the individual farmers. It 
is a whole different animal over there.
    The individual farms are not even being certified as our 
farms here are as a separate farming operation where their 
procedures are very intimately reviewed and scrutinized. 
Instead, because of the cumbersome mechanism, it is so 
expensive to certify farms over there, like a couple thousand 
dollars that most of these very small agricultural producers 
are certified under a group or an umbrella certification 
through the exporters. So it is a bastardization of the entire 
system that organic consumers in this country are willing to 
pay a premium for.
    I think you used the term Orwellian? Was that you, 
Representative?
    Mr. Stockman. Yes.
    Mr. Kastel. This is Orwellian that families are seeking a 
safer and more nutritious food supply that they trust and it is 
coming from this low level of oversight. And you asked about 
the competition that we face. Our farmers, our entrepreneurs, 
our processors, our high-integrity businesses are facing this 
unfair, uneven playing field because we go through--we jump 
through these hoops. It is expensive. We have to document 
everything we are doing on farms and processing plants. That is 
not happening in China.
    Mr. Stockman. I want to say one thing. I actually toured a 
catfish farm in China and I had the PLA there very close to me. 
It was owned by--people don't realize it, but the military 
actually owns a lot of the industries over there. And it was 
alarming to me to the degree which they controlled it and we 
were given limited access. I can just say though I am puzzled, 
why do you think you are not--well two questions, excuse me, 
Mr. Chairman, if I go over a little bit. But should we block 
all imports of food until we get access? And two, why do you 
think that the national media is not picking up on this? It is 
alarming that they are not.
    Mr. Kastel. Sure. First of all, I think as a food consumer, 
as I think we all are, I would like to see Congress demand of 
our regulators that imported foods meet the same high 
standards, the same level of inspections. Just because it is 
coming in on a container, why should there be less oversight? 
If we can afford to do it, they can afford to do it in other 
countries, either through a creditable inspection service with 
which we recognize reciprocity which doesn't exist in China or 
by our own inspectors. But short of that, do you want to 
entrust your children, your grandchildren's health and future 
and well being to some economic interest?
    Again, this has been referenced more than just by my 
testimony. We have endemic levels of commercial fraud in that 
country, superseding just the food industry. Why should we 
trust somebody who has robbed us 20 times that they are going 
to operate in an ethical manner going forward? Trust and 
verify.
    Mr. Stockman. Thank you.
    Ms. Lovera. Just on the topic, I mean one issue that we 
deal with as a consumer advocacy group is a little bit of 
almost fatigue on food safety news and I think that is part of 
what is happening. But to your question about whether to let 
these products in or not, we are now very dependent on certain 
things. One country, like China, is producing 80 percent of the 
world's Vitamin C and you shut them down, products won't get 
made, right? So that is one factor in this as a reluctance to 
not have some of the products made.
    I mean one very specific example we are dealing with right 
now is the FDA has been tracking for several years reports of 
illness in mostly dogs, and it seems to be tied to a specific 
type of treats made of chicken. They are like chicken jerky 
treats. And they are sourced from China. They can't quite 
figure out the problem and this has been going on for years. It 
will get occasional local media, people will cover it as a 
local story, this tragic thing happened to a local pet owner, 
but it hasn't really risen to this thing that has been going on 
for several years. There is a China connection and at several 
points last year when FDA went to plants that were making some 
of these ingredients, they were not allowed to take samples. 
They could take samples, but they couldn't send the samples to 
labs in the U.S. to do the testing, so it was a real breakdown 
in our regulators' ability to figure out what is going on.
    So that gets covered almost as a local story, a very 
personal story, but there is a much bigger story there about 
our system not being able to deal with this and we are 
dependent on the companies doing a voluntary recall. We haven't 
seen FDA block this product.
    Mr. Stockman. Yes, I remember when the national media got 
upset with the dog food thing. I was surprised that all the dog 
food was made in China at one place, even though you paid $10 
for this bag, $2 for this bag came from the same shop.
    Mr. Chairman, I yield back the balance of my overtime use.
    Mr. Rohrabacher. If we have more time and if you want more 
time for a second round, we can. We are expecting to have a 
vote very shortly.
    Let me just ask you some, as I say clean up, batting clean 
up here. You mentioned Vitamin C, 80 percent of the world's 
Vitamin C comes from China?
    Ms. Lovera. Yes.
    Mr. Rohrabacher. Is there any question that some Vitamin C 
may not be up to standard?
    Ms. Lovera. That is an assumption on our part. I can't 
prove that to you, but I am assuming that there is some 
problems based on the track record we have seen in other 
sectors.
    Mr. Rohrabacher. Do we know if--here it is, my multi-
vitamin for every time I have a meal and the Vitamin C is in 
there. Do I know where that Vitamin C is coming from?
    Ms. Lovera. No, we don't get this level of information as 
consumers.
    Mr. Rohrabacher. So American consumer, if some of us are 
concerned with the standards in China, we don't know that we 
are consuming something from China even--and that's not on 
anywhere near on the label, right?
    Ms. Lovera. It may tell you what country it is made in as a 
processed food, but it's not going to go down every ingredient.
    Mr. Kastel. Can I add, Mr. Chairman?
    Mr. Rohrabacher. Go right ahead.
    Mr. Kastel. Besides for those supplements that you are 
shaking, that Vitamin C ascorbic acid is a very, very common 
food ingredient in processed food, so if you read the fine 
print where those little novels are on the side of a food 
package, that is in there. So there was some----
    Mr. Rohrabacher. And it doesn't say where it is coming 
from?
    Mr. Kastel. No, it doesn't.
    Mr. Rohrabacher. It just says Vitamin C is in there, fine, 
but I personally go out of my way to try to not buy products in 
China because I have concluded, that is one of the reasons we 
are holding this hearing is because the chairman has concluded 
that there are some major questions that need to be answered 
and some challenges that need to be met before we can trust our 
putting things into our body or into our family's body that 
might be harmful.
    Mr. Kastel. Industry has fought like hell against country 
of origin labeling, COO. We would really encourage this body 
and all Members of Congress to defend the rights of the 
American public to make informed choices in the marketplace. 
Not only do I not want to buy Chinese food in my household, I 
want to reward the businesses in the United States that employ 
people at fair wages, that meet pollution and other regulatory 
standards, that meet other labor standards. And I can't do that 
in most of the food I buy because the processed food, as Patty 
was stating, is not required to label.
    Mr. Rohrabacher. I actually shop a lot for my family. I 
like to shop. And I know I am going to shock everybody here, 
but I really like to go to the 99 cent store, okay? So I go to 
the 99 cent store and you have all of these labels that are 
sounding so American, I mean Honey Hill and Aunt Martha's this 
and all of these things that sound just sound so down home 
American and then you look real close and the little tiny print 
it says China on it.
    Mr. Kastel. It is even worse than that, you have brands 
like Chicago Pneumatic that makes tools. They are from China. 
Maybe there is a town called Chicago in one of the provinces 
there, but I don't think so.
    Mr. Rohrabacher. Or as the one that used to be, they 
changed the name of a city in China to USA so they can print on 
it made in USA. Hm. Well, we are up against what I consider to 
be a very, how do we say, an adversary that is seeking benefit 
in a way that will put our children and our families at risk 
and we need to make sure that--and there are people in our 
country, of course, who are making a profit by dealing with 
those who are putting us at risk. And I think that we need to 
make sure that number one, labeling means something.
    I will give you one example. In my area, there is a 
gentleman who runs a paint and coating company and he used to 
sell all the paint for Mattel dolls. Now I happen to have two 
daughters who are 9 years old and I know what little kids do 
with dolls. They kiss little dolls and when the Chinese bought 
Mattel or bought the rights or Mattel decided to contract with 
the Chinese, the Chinese came to this company and he described 
how he had to make sure he had the right kind of paint that 
would not be at all risky to the health of the consumer. And 
sure enough, they decided to go forward with their own formula 
and Mattel dolls after about a year were found to have lead 
paint. And so you have all these little children kissing their 
doll, thinking and with Americans having trusted Mattel, a very 
trusted label and not to do something like that, but those 
children were being put at risk because Mattel had decided to 
manufacture in China.
    By the way, that situation was cleared up, only because it 
took a huge fight and it took a great amount of spotlighting 
the issue for that to happen. I think this has been a very good 
hearing. Do either of you have another question you would like 
to throw up?
    I think we could have a second round.
    Mr. Stockman. Mr. Chairman, I just want to say something 
quick. I think we on this panel probably have both 
conservatives and liberals and are in general agreement. And I 
think that is an unusual circumstance where we have this 
concern from both sides of the aisle and both different 
philosophies. I just again can't stress enough, I think somehow 
your organizations need to announce that this hearing occurred, 
and the things that you said and with us also stating that 
maybe we will generate some interest. This is a very serious 
issue. And it is alarming that everything that we read now on 
the labels, in fact, may not be true. And that is what we rely 
on, those labels. So again, thank you for the hearing, Mr. 
Chairman
    Mr. Rohrabacher. I will end it with this, obviously from 
what we have heard today, the American people are facing a 
threat, a major threat to their well being. Their health, the 
health of their families could be in great jeopardy and this 
could be--and they could be put in jeopardy. They may be put in 
jeopardy by number one, unscrupulous people who are making 
money dealing with people in China who are not doing anything 
up to the standard that we expect here in the United States of 
America.
    Mr. Kastel. And if I can interrupt to add one more thing, 
Mr. Chairman? Taking off from what you are saying because you 
are spot on.
    Mr. Rohrabacher. Go right ahead.
    Mr. Kastel. I think we need to hold the businesses in this 
country that are doing the importing responsible as well 
because they are again part of this dynamic that places really 
responsible food producers in the United States at a 
competitive disadvantage. I use one example, Eden Foods in 
Clinton, Michigan.
    Mr. Rohrabacher. Say that again?
    Mr. Kastel. Eden Foods in Clinton, Michigan, you asked 
about Walmart organics, the canned beans at Walmart whether 
they are pinto beans or black beans, they come from China. Eden 
Foods buys not from some broker with a piece of paper, but from 
farmers that they have dealt with for generations in North 
America, mostly in Michigan, but some in the Plains States and 
Canada. They know the farmers. They are a little bit more 
expensive, but they are operating in a very high, ethical 
level. We need to protect those kind of investors and 
entrepreneurs and that means that we need to hold responsible 
for everybody in the supply chain.
    If somebody comes in from China at 30 percent cheaper, we 
need to find out why and those businesses need to do their due 
diligence. And if they can't inspect, if they are not allowed 
to go to that factory or those farms, they shouldn't be doing 
business there.
    Mr. Rohrabacher. Well, step one seems to be for us all to 
agree, Republican and Democrat, that we believe the consumer 
has a right to know what they are buying and has a right to 
know what country of origin they are coming from because 
consumers may or may not want to deal with--even if it was not 
healthy, maybe they want to deal with slave labor for countries 
that don't permit unions or don't permit their workers to earn 
a decent living. And maybe there are people who are 
nationalistic and just want to buy from the United States of 
America, from fellow Americans. That's fine, too. Maybe they 
are willing to buy a little bit more or pay a little bit more.
    So we can all agree that we, as Americans, have a right to 
make the decisions in our lives based on a free flow of 
information and accurate information and that right now that is 
not happening. And in fact, the fact that we have got 
threatening foods coming in that could do harm to our families 
suggest to us that the American people are being betrayed by a 
compromise of standards and someone is making a lot of money at 
it. I certainly believe that we should be holding the corporate 
interests, the individuals and the corporations that are 
pushing for this and bringing food over that may or may not be 
safe.
    And by the way, they are the same ones, when we start 
talking about labeling, you can bet that these are the folks 
who have been fighting it behind the scenes the whole time. It 
is like and I always complain about the companies that go over 
to China and then the corporate leaders say well, it is not our 
job to watch out for the security of the United States. That is 
your job. You pass the laws and we will have to obey them. 
Until then, we want to invest wherever we want for the benefit 
of our company, except they don't add that their company then 
spends a lot of money on lobbying to make sure that we don't 
pass any laws that prevent them from doing business with a 
dictatorship that is the world's worst human rights abuser in 
the world.
    So we have got our work cut out for us. This is a very good 
start in the discussion and I do plan to hold another hearing 
on this some time in the near future.
    Mr. Stockman. Mr. Chairman. I have a request, if possible, 
could we bring the officials from the Silk Company before the 
committee?
    Mr. Rohrabacher. We can ask anybody to come here that we 
would like.
    Mr. Stockman. I would like to put Mark and them on the same 
panel.
    Mr. Triplett. Mr. Chairman, one last thing to pick up on 
the distinguished gentleman's point. We have the names of 
products and we know people are making a lot of profits. That 
is exactly what you said. But we don't have the names of who 
those people are. If, God forbid, we should have a disaster 
here, stopping all trade is all we have. We don't know who the 
corrupt officials are. We don't know yet who the people are who 
are engaged in this. And to the extent that we can gain some 
information from the administration, task the administration to 
find the names, that is useful.
    I think the Congress did a very good job of naming some 
Russian officials, you remember, very recently. This is 
legislation you all did. And it caused a big impact in Russia. 
You can cause a really big impact in China if you named names 
or threatened to do so. And that would mean oh gee, I can't go 
to the United States. I can't visit my money and I can't send 
my kid to college, all of this kind of thing in the United 
States. If you begin with the basic data of who the 
perpetrators are, I think that would be a very useful thing for 
the committee to do, based on the Russian experience. Thank 
you.
    Mr. Rohrabacher. Well, transparency and accountability are 
two essential ingredients if we are going to have freedom and 
be able to have decent lives and have any security in our lives 
at all with freedom. Freedom means that you are going to have 
some choices. Freedom means there is going to be people doing 
things that you are not totally in control of, but you should 
be in control of your own decisions. So with that said, I want 
to thank the panelists for opening up this area of discussion. 
As I say, I think we will probably have another round of 
hearings on this some time in the months ahead, but I think we 
have started the national dialogue which is important. This 
hearing is adjourned.
    [Whereupon, at 3:17 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               <F-dash>\\

   Material submitted for the record by Ms. Sophie Richardson, China 
                      director, Human Rights Watch
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: The above report is not reprinted here in its entirety but is 
available in committee records or may be accessed on the Internet at: 
http://www.hrw.org/sites/
default/files/reports/china0611WebInside_0_0.pdf (accessed 6/5/13).]
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

[Note: The above report is not reprinted here in its entirety but is 
available in committee records or may be accessed on the Internet at: 
http://www.hrw.org/sites/
default/files/reports/china0111webwcover.pdf (accessed 6/5/13).]
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
